No.

El-570

ORIGINAL

~n
I

Supreme Court, U.S.
FILED

JUN 2 3 2021
OFFICE OF THE C1 FHK J

IN THE
SUPREME COURT OF THE UNITED STATES

MICHEL CHERFRERE

— PETITIONER

(Your Name)
vs.

STATE OF FLORIDA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

U.S. Court of Appeals for the Eleventh Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Michel Cherfrere
(Your Name)

Martin Correctional Institution
(Address)

1150 SW Allapattah Road, Indiantown, FL 34956
(City, State, Zip Code)

No
(Phone Number)

RECEIVED
SEP 13

f

0 OP %
QUESTION(S) PRESENTED

Do United States Supreme Court supported any Defendant who competent have
right to represent himself in the criminal case at the jury trial. Do United States Supreme
Court supported any Defendant who represent himself at jury trial have right to cross
examine witnesses.
The Petitioner Mr. Cherfrere, was arrested on October 13, 2008 for an offense
which was allegedly committed in Broward County, Florida. The State of Florida filed
an information charging the Petitioner with (2) two counts of attempted first degree
murder, one count of aggravated child abuse and one count of child abuse. Case no.
08-19700CF10A. A trial was held on this four count information and resulted in a
mistrial with his private attorney. After mistrial the Petitioner became have financial
problem he was discharge his private lawyer at the case. Mistrial was occurred
December 8, 2010. See Exhibit A. The Petitioner moved to self representation the
motion for self representation was granted by trial court. In the judge ordered Petitioner
to the Department of Children and Family Services for competency of children and
family services for competency examination the order was issued August 12, 2011. On
November 1, 2011 the Petitioner returned from Children and Family Services by
stipulation of the parties the Petitioner was found to be competent. See Exhibit “B” and
the state refiled the Petitioner’s case number was 08-19700CF10A to case number
11-12613CF10A with the same information and the Petitioner incarcerated without
bond. See Exhibit C. The Petitioner filed a motion for speedy trial. The trial court
denied said motion and declared the petitioner represented by counsel. The Petitioner
has been granted for self representation. Any of counsel never contacted the Petitioner
at all to interview him. The Petitioner was filed multiple motion to the trial court, the
judge denied all the motion and declared the Petitioner represent by counsel any of
counsel never make any contact to Petitioner to interview him at all. The trial judge
keep the Petitioner in the County Jail for five years without bond, without trial, and after
Petitioner been granted for self representation. And also the refuse to provide the
Petitioner the case discovery to prepare for his trial. In the trial judge offer the Petitioner
a few time to be represent by court appointed counsel the Petitioner refused to accept the
Court’s offer. The Petitioner declared to the court he want to exercise self
representation. See Faretta v. California, 422 U.S. 806, 821 (1975). Alston v. State,
So.2d 655 (Fla. 1993). On May 1, 2013 the trial judge appointed Mr. Cherfrere public
defender Mr. Patrick Curry to represent him at trial the Petitioner Mr. Cherfrere was
refused the court offer. The Petitioner filed a motion to discharge Mr. Curry as counsel
see Exhibit D. In after discharge Mr. Curry as counsel the judge declared Mr. Curry
reaooointed for standbv counsel, the Petitioner was
0 4

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

Curry, Patrick J. (Defense Attorney)
Damoorgian, The Honorable Dorian K. (Fourth District Judge)
Dimitrouleas, The Honorable William P. (U.S. District Judge)
Gerber, The Honorable Jonathan D. (Fourth District Judge)
Gibson, Joseph W. (Defense Counsel)
Haughwout, Carey (Public Defender)
Hernandez, Marc B. (Assistant Attorney General)
Klingensmith, The Honorable Mark W. (Fourth District Judge)
Levine, The Honorable Spencer D. (Fourth District Judge)
Lewis, Joanne (Assistant State Attorney)
Moody, Ashley (Attorney General)
Reid, The Honorable Lisette M. (U.S. Magistrate Judge)
Satz, Michael J. (State Attorney)
Warner, The Honorable Martha C. (Fourth District Judge)
Jordan and Newsom Circuit Judge for Eleventh Circuit
OPINIONS BELOW
U.S. Southern District denied from Federal Court opinions on 8.31.2020, the court
determined that Petitioner has not shown

/ 1 *

-ill —

TABLE OF CONTENTS
OPINIONS BELOW

1
*

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

iO

CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

ftlSion ^ SfH'k, —So-?. jKaSStm

* +

**

t i

l-tih^bCS) ZO\3)~ - -

K-5^ /£( S0.3JUX
U,S, %o6>C!Q~>$'

fyq If, Cft

>993) » . -

, is+lycfl 1993) .

»*
/;

4-

«r

- - -

7

<3

^.uHi ftotfS, L> $L5 So-?rJ lo3 CF*
So.lJ ??/ (pm.3J'&:M,^/o) - “ “ ’

Ll

R.O-rr\%_fcO /* 5‘W'^y

Vtc+az Y. FYitk/

<SHL SoJlJ *-{~!9 CFlft-3-d>°~&) * "

T73 50.^/

r “

------- ---

1/1 C'tby-’ \/- statesU4 Oo-I^l
q fLft. %OOZ).-------A/'liaG^HA l'-‘sVsrVe,(T3p So-f qq /
STATUTES AND RULES

1"

OTHER

V-

*~l

* *

If-

WRa^/J ...J/

f

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
(XI For cases from federal courtHO ikedr

a

H

of a5ute1a^fia? Con^iW'^l ftjHT

The opinion of the United States court of appeals appears at Appendix /T_to
the petition and is
[ ] reported at
; or,
[ ] lps been designated for publication but is not yet reported; or,

[uHs unpublished.!! send a Ccf?y fo-tk'i
to

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at__ K)o"t~ 4-?ti Goe-lp U; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

[

[ ] For cases from state courts: MQ-5

mexit"to LOaViant

lief.

The opinion of the highest state court to review the merits appears at
Appendix ____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,

[] is unpublished. X .-5 end a. C®?/
The opinion of the _
appears at Appendix

%[2 eta/ijh.
court

to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

I

fieW 0

1.

U

JURISDICTION
For cases from federal courts:
The date on whi^h^the^LJmted States Court of Appeals decided my case

M. No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was *2- /A- *2./
A copy of that decision appears at Appendix_______
A timely petition for rehearing was thereafter denied on the following date:
_3- 9-a*________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Defendant request for constitutional trial. The trial counsel was deficient
performance ineffective assistance of counsel and prejudicial and deprived
Petitioner of a fair trial. On August 19, 2013, the Petitioner started his trial pro se
without counsel or standby counsel at all. Selected the jury doing voir dire self
representation. On August 20, 2013, the counsel took over the trial by force that
counsel was never make any contact with the Petitioner to take any statement from
him to interview him to discovery and the fact of the case and continued the trial
without any investigation.
Counsel A.G. Curry was ineffective for failing to utilize the affirmative
defense of abandonment even though the evidence produced by the State’s
witnesses substantiated this meritorious defense additionally, had it not been for
counsel’s deficient performance, there is a reasonable probability that the
Petitioner would have been acquitted of the charged offense of the charged or at
least been found guilty of a lesser included offense.
The fact of this case show this incident to be horrible case of a domestic.
Because everyone can imagine that the alleged victim came with one in the
weapon. Dispute between the- Petitioner and the alleged victim. The Petitioner
claimed the alleged victim trying to kill him he was acting self defense. The
alleged victim claimed the Petitioner was trying to kill her. During trial, one of the
State’s witnesses, Ag Roberto testified that when he saw the Petitioner
approaching the Petitioner he had no weapon in his hand and he was repeatedly
saying it’s over, it’s over. See Exhibit 2 “A”. This was not because he could not
continue his attack, this was because he voluntarily abandoned whatever criminal
attempt he may have had.
The evidence clearly shows that the Petitioner had machete like over two
feet long that he could have easily armed himself with. The police were not there

3.

and no other bystanders were was armed or able to stop him to kill alleged victim
if was decided to.
The Petitioner deserved constitutional trial and DNA and finger print in the
knife.

The alleged victim was come with all that issues because ineffective

counsel. See Romero v. State, 48 So.3d 971, 972 (Fla. 3rd DCA 2010); Victor v.
State, 846 So.2d 479 (Fla. 2003).

H.

STATEMENT OF THE CASE

The Petitioner Michel Cherfrere and his wife were married and living
together for many years. The wife’s name in this Petition will be referred to as the
complainant or alleged victim. On the beginning of 2008 some problem was
started between the wife and husband, the wife had gone to Broward County Court
house in front of the Judge to complain against the Petitioner asking the Judge to
make the Petitioner move out from the house.
Because the Petitioner started to do violence to her. After Petitioner was
explaining to the Judge the reality the Judge order the complainant to move out of
the house. In with five hundred feet stay away order each one another and the (6)
six months to file a divorce, if any decision made for reconciliation.

The

Complainant was telling the Judge I cannot leave the house because I have all my
belongings inside the house the Judge was telling the complainant you can go to
take your belongings inside the house. Make sure you have a police officer with
you to against the violence. The Complainant was very upset when the Judge
ordered her to leave the house and five hundred feet stay away from the house.
The final order was September 11, 2008.

On October 12, 2008, the

complainant showed up to the house with two police officers and some people to
help her remove the belongings. The complainant was very upset to move out
from the house on the day on October 12, 2008. On the next morning on October
1^, 2008, about 5:30 am, she came to the house, opened the door and attacked the
Petitioner with a knife and chased him all over in the house. The Petitioner was
yelling at her to stop chasing him with her knife. The Complainant was saying to
Petitioner, “I am going to stop after I kill you because you tell the judge to move
me out from my house. I’m homeless with my daughter and you living in the big
house like a king”.

5.

The complainant was never give the Petitioner a chance to get his phone to
call the police. The Petitioner was running in the kitchen he found a small knife,
he took it and holding in his hand just for defense and to stop the complainant
chased him with her knife. The Petitioner running in his car garage just to get out
of the way. On the way out he found the machete he was keeping in his garage he
was grabbing it and his car keys were on him. He went out in jumped in his truck
trying to get to his neighbor house the fourth to his house to call the police for
him. The Petitioner had one machete and one small knife in his hand. Just to stop
the complainant from killing him with her knife. When the Petitioner got in his
truck he took both with him, the machete and knife.
The complainant was leaving the house jumping in her S.U.V. she was
drinking. She got her knife she came with just across the street in front of the
house the complainant tried to pass the Petitioner truck to stop him. The Petitioner
moved with high rate of speed. Between the Petitioner and the complainant they
were involved in a car accident. The Petitioner got out of his truck just to tell the
neighbors to call the police. He didn’t have nothing in his hand.
The complainant got out from her S.U.V. with her knife in her hand and
tried to stab the Petitioner and he tried to block the knife from her hand he already
n

got stabbed in his thumb. The Petitioner got back in his truck, took his machete
holding in his hand and yelling at her to stop. The complainant was continued to
come to him with her knife, the Petitioner was dropping his machete on the ground
and he held her with two hands and she had a knife on her hand at the time the
complainant’s daughter was in the car with her.
The Petitioner was never know that the daughter was opening the door and
get out. The Petitioner was trying to make the daughter stay away because of the
knife. The Petitioner was keeping look beyond he just don’t want the eleven years
old daughter involved in the knife fight and complainant used her knee and hit him

b.

on groin. The Petitioner could not stand up anymore at that time the fight was
become overwhelming and it was still a dark. The Petitioner was putting the
complainant on the ground between Petitioner and the complainant was wrestling
on the ground. The complainant get stab with the same knife she brought to kill
the Petitioner - the complainant became victim and the neighbor call the police the
victim still have her knife in her hand she covered with blood.
The Petitioner never touch the knife. The police was took the knife from her
hand the police ask her where she get the knife from she answered to the police she
don’t living there anymore she have her daughter use to get school bus on front of
the house in she came waiting for the bus to pick her daughter. The Petitioner
driving his truck and hit the alleged victim S.U.V. and coming with one machete
and two knife in his hand stab her 19 times in after she get all the stabbing she
wrestling with the Petitioner and took the knife from him.
The Police said the alleged victim got stab three times. One large, two very
small minor. Nothing happening to the daughter and on that day school bus never
showed to pick the daughter up. The allege victim violated her restraining order
five hundred feet stay away order. The alleged brought her own knife to kill the
Petitioner.

She victim with her own knife. The State of Florida charged the

Petitioner premeditated attempted murder. The Petitioner claim self defense. The
police officers was arrested the Petitioner without any statement from him.
The complainant daughter declared her mamma get the knife. See Exhibit
“4.A” Small knife Petitioner took from his kitchen. Exhibit “5 .A” Alleged victim
came with. Exhibit “6.A”. This machete the Petitioner pick in his garage. Her
daughter give to the police 13 page statement the day was incident she was eleven
years old. The Petitioner have charge against her. In the trial day, she became 16
years old they refused her to testify because she declared in her statement her mom
get the knife, pc/iti oiv<*- "Requested 35^4 and‘JTtrt&u-'PoinT&ntU Km‘£tU>Q5
iV\ UcllAd in (uCinCnt*

7.

REASONS FOR GRANTING THE PETITION

1) The Petitioner, Mr. Cherfrere, filed a motion for self representation the
motion was granted. The court appointed Mr. Curry as counsel Petitioner
filed a motion to discharge Mr. Curry as counsel the motion was granted is
no reason for the same counsel came back to took the trial by force.
2) The Sixth Amendment of the United States Constitution guarantees
defendant have the right to represent himself as counsel of a criminal case.
The Supreme Court held that the defendant has 14 and 6 Amendment right
to conduct his or her own defense in a criminal case.
3) The Petitioner request this Court to ask the lower court to proof the
Petitioner the DNA tested and finger point in the knife was involved on
incident.
4) For violated the Petitioner Constitutional Right self representation.

See

Chaffin v. State, 121 So.3d 608, 615, 616 (Fla. 4th DCA 2013). For
sentenced imposed on the Petitioner. See Kurt Haas, 625 So.2d 103 (Fla. 1st
DCA 1993). The Petitioner deserved relief and DNA and finger point on the
alleged victim knife.

%

CONCLUSION

In closing, the Petitioner states that the record substantiates allegations the
record shows that the State of Florida violated the Petitioner’s Constitutional right
for charges because the alleged victim have five hundred stay away from the house
the Petitioner’s living. She came with her own knife and she victim with her own
knife. And she came with her daughter with her. The Petitioner having charges
for everything. Petitioner searching for justice and relief.
The Petition for a writ of certiorari should be granted.
Respectfully submitted,^
(^/){/rdftyA

3,/

Date

Cherfrere Michel, pro se

)0.

